No. 19-402

 

IN THE

Supreme Court of the Anited States

HOWARD L. BALDWIN, ET UX.,

Petitioners,
v.
UNITED STATES,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF FOR AMICI CURIAE
AMERICANS FOR PROSPERITY AND
CAUSE OF ACTION INSTITUTE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,719 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 24, 2019.

Colin Casey Hoga;

Wilson-Epes Printing Co., Inc.
